Audit Report




OIG-11-040
SAFETY AND SOUNDNESS: Failed Bank Review of Maritime
Savings Bank, West Allis, Wisconsin
November 30, 2010




Office of
Inspector General
Department of the Treasury
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF

                                            November 30, 2010
INSPECTOR GENERAL




            OIG-11-040

            MEMORANDUM FOR JOHN E. BOWMAN
                           ACTING DIRECTOR
                           OFFICE OF THRIFT SUPERVISION

            FROM:                 Jeffrey Dye /s/
                                  Director, Banking Audits

            SUBJECT:              Failed Bank Review of Maritime Savings Bank, West Allis,
                                  Wisconsin


            This memorandum presents the results of our review of the failure of Maritime
            Savings Bank (Maritime) located in West Allis, Wisconsin. Maritime was established
            as a mutual thrift in 1912, insured as an Office of Thrift Supervision (OTS)
            regulated federal mutual savings and loan association in 1937, and converted to a
            state-chartered mutual savings bank in 1993. Maritime converted back to a federal
            mutual savings and loan association under OTS’s supervision in June of 2007 to
            expand its business in Arizona. Maritime operated a main office in West Allis and
            seven full-service locations in Milwaukee County, Wisconsin. OTS closed Maritime
            and appointed the Federal Deposit Insurance Corporation (FDIC) as receiver on
            September 17, 2010. As of June 30, 2010, Maritime had approximately $350.5
            million in total assets and $248.1 million in total deposits. FDIC estimated that the
            loss to the Deposit Insurance Fund is $83.6 million.

            Because the loss to the Deposit Insurance Fund is less than $200 million, as set
            forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
            review of the failure of Maritime that was limited to (1) ascertaining the grounds
            identified by OTS for appointing the FDIC as receiver and (2) determining whether
            any unusual circumstances exist that might warrant a more in-depth review of the
            loss. In performing our review we (1) examined documentation related to the
            appointment of FDIC as receiver, (2) reviewed OTS reports of examination, and
            (3) interviewed OTS examination personnel.

            We conducted this performance audit during September and October 2010 in
            accordance with generally accepted government auditing standards. Those
            standards require that we plan and perform the audit to obtain sufficient,
OIG-11-040
Page 2

appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.

Causes of Maritime’s Failure
OTS appointed FDIC as receiver based on the following grounds: (1) the thrift’s capital
had been severely impaired and (2) the thrift’s board of directors consented to the
appointment.

The primary cause of Maritime’s failure was significant asset quality problems that
management failed to properly recognize and report. The thrift’s asset quality
deterioration was directly attributed to the thrift’s high exposure to commercial real-
estate lending, primarily construction and land development. The thrift’s loan portfolio
consisted of low-quality assets that posed a significant risk to the thrift’s capital,
which threatened the thrift’s viability. In addition, Maritime had a significant lending
concentration in Arizona and an elevated risk profile due to a high level of construction
(multi-family, nonresidential, and speculative single-family housing), nonresidential
mortgage, and land loans. As of March 31, 2008, approximately half of the thrift’s
loans in Arizona were high-end, speculative construction loans.

The majority of the thrift’s classified assets were troubled debt restructurings, where
loans had several modifications – payment advances, deferrals, or reductions – to
borrowers who lacked the ability to repay the loans. While the increase in the number
of the thrift’s classified loans were partially due to the decline in the economy,
management failed to properly underwrite, administer, and classify problem credits.
The inappropriate use of interest reserves, a deficient loan review process, and
inadequate appraisal and credit reviews of loan modifications exacerbated the thrift’s
asset quality problems.


Conclusion
Based on our review of the causes of Maritime’s failure and the grounds identified
by OTS for appointing FDIC as receiver, we determined that there were no unusual
circumstances surrounding the thrift’s failure or the supervision exercised by OTS.
Accordingly, we have determined that a more in-depth review of the thrift’s failure
by our office is not warranted.

We provided a draft of this memorandum to OTS management for comment. In its
response, OTS stated that the primary causes of Maritime’s failure summarized in
OIG-11-040
Page 3

this memorandum are consistent with the information contained in its reports of
examinations and documents in support of the grounds for receivership. The
response is provided as Attachment 1. A list of the recipients of this memorandum
is provided as Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-0384 or
Rashmi Bartlett, Audit Manager, at (202) 927-5839.

Attachments
         OIG-11-040

       Attachment 1
Management Response
                                                   OIG-11-040

                                                  Attachment 2
                                                    Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Evaluations
   Office of Accounting and Internal Control

Office of Thrift Supervision

   Acting Director
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
